Department of Homeland Security
   Ofﬁce of Inspector General

      Status of Disaster Recovery Planning 

         for Information Systems at the 

           Nebraska Avenue Complex 


            (Unclassified Summary)





OIG-09-87                               July 2009
                                                           Office of Inspector General
                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




            Status of Disaster Recovery Planning for Information Systems at
                             the Nebraska Avenue Complex

                            Unclassified Summary 

                                (OIG-09-87) 

 ___________________________________________________________________


We evaluated the Department of Homeland Security (DHS) and its organizational
component disaster recovery programs at the Nebraska Avenue Complex. Our objective
was to determine whether DHS components at this facility made progress in resolving the
disaster recovery deficiencies we reported in May 2005. Specifically, we evaluated the
ability of the DHS Office of the Chief Information Officer and the Office of Intelligence
and Analysis to restore information systems processing at an alternate site if access to this
shared facility was disrupted.

The audit included an onsite verification and validation of facility operational security
controls and a review of DHS policies, procedures, and other appropriate contingency
planning documentation. While the department has strengthened its disaster recovery
planning for the Nebraska Avenue Complex, more work is needed. We briefed DHS and
component officials on the results of our audit and issued a classified report. We also
made four recommendations to improve the department progress in establishing its
disaster recovery programs. DHS concurred with our recommendations and is already
addressing the findings.
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
